Pen
  nsion Benefit
        B       Guaran
                     nty Corrporatio
                                   on
    Office
         e of Ins
                specto
                     or Gen
                          neral
          Evalua
               ation Re
                      eport




   Fiscal Year
          Y    200
                 09 Federral Inform
                                  mation
    Security Manaagementt Act (FISMA)
          pendentt Evaluation Rep
      Indep                       port




             Marc
                ch 22, 20
                        010
                                 EVAL-2010--7 / FA-09-64-7
          Fiscal Year 2009 FISMA Independent Evaluation Report

                                   EVAL-2010-7 / FA-09-64-7




                                                Contents

                                                                                                              Page

Independent Auditor’s FISMA Evaluation Report .............................................                        1



Section

      I. Executive Summary ....……………………………………………………                                                                2

      II. Background ..…...................................................................................        2

     III. Objectives ...........................................................................................   3

     IV. Scope and Methodology ..…...............................................................                  3

     V. Summary of Current Year Testing ..………….....................................                                4

     VI. Findings and Recommendations ..………………….............................                                       5
.
    VII. Previously Reported FISMA-Related Findings ................................... 10

    VIII. FISMA Recommendations Closed in Fiscal Year 2009 ……………… 16

     IX. Prior and Current Years’ Open FISMA Recommendations ..………... 16

     X. Management Response ..................................................................... 17
a1
Ms. Rebecca Anne Batts
Inspector General
Pension Benefit Guaranty Corporation
1200 K Street, N.W.
Washington DC 20005-4026

Dear Ms. Batts:

We are pleased to provide the Fiscal Year (FY) 2009 Federal Information Security Management
Act (FISMA) Independent Evaluation Report, detailing the results of our review of the Pension
Benefit Guaranty Corporation (PBGC) information security program.

FISMA requires Inspectors General (IG) to conduct annual evaluations of their agency’s
security programs and practices, and to report to Office of Management and Budget (OMB)
the results of their evaluations. OMB Memorandum M-09-29, “FY 2009 Reporting Instructions
for the Federal Information Security Management Act and Agency Privacy Management”
provides instructions for completing the FISMA evaluation. Evaluations conducted by Offices
of Inspector General (OIG) are intended to independently assess whether the agencies are
applying a risk-based approach to their information security programs and the information
systems that support the conduct of agency missions and business functions.

Clifton Gunderson LLP completed the required responses on behalf of the PBGC OIG. The OIG
then reviewed, approved, and submitted the responses to OMB on November 18, 2009. This
evaluation report provides additional information on the results of our review of the PBGC
information security program.

In preparing required responses on behalf of the OIG, we coordinated with PBGC management
and appreciate their cooperation in this effort. In its response to a draft of this report, PBGC
management was in general agreement with the recommendations contained in the report and
provided specific responses to each recommendation. Management’s response is included in its
entirety in Section X of this report.


a1
Calverton, Maryland
November 18, 2009




11710 Beltsville Drive
Suite 300
Calverton, Maryland 20705
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com
                                   Offices in 17 states and Washington, DC
                                                                                h
I.    EXECUTIVE SUMMARY

Title III of the E-Government Act (Public Law No. 104-347), also called the Federal Information
Security Management Act (FISMA), requires agencies to adopt a risk-based, life cycle approach
to improving computer security that includes annual security program reviews, independent
evaluations by the Inspector General (IG), and reporting to the Office of Management and
Budget (OMB) and the Congress. It also codifies existing policies and security responsibilities
outlined in the Computer Security Act of 1987 and the Clinger Cohen Act of 1996.

We are reporting six (6) FISMA findings with twelve (12) recommendations for FY 2009 based
on the results of our Fiscal Year (FY) 2009 independent evaluation. In addition, fifteen (15)
FISMA-related findings with thirty-six (36) recommendations were reported in the Corporation’s
FY 2009 internal control report based on our FY 2009 financial statements audit work. Overall,
we determined that the Pension Benefit Corporation (PBGC) has not established an effective
information security program and has not been proactive in reviewing security controls and
identifying areas to strengthen this program.


II.   BACKGROUND

The Pension Benefit Guaranty Corporation (PBGC) protects the pensions of nearly 44 million
workers and retirees in more than 29,000 private defined benefit pension plans. Under Title IV
of the Employee Retirement Income Security Act of 1974 (ERISA), PBGC insures, subject to
statutory limits, pension benefits of participants in covered private defined benefit pension plans
in the United States. To accomplish its mission and prepare its financial statements, PBGC
relies extensively on information technology (IT). Internal controls over these operations are
essential to ensure the confidentiality, integrity, and availability of critical data while reducing the
risk of errors, fraud, and other illegal acts.

PBGC has become increasingly dependent on computerized information systems to execute its
operations and to process, maintain, and report essential information. As a result, the reliability
of computerized data and of the systems that process, maintain, and report this data is a major
priority for PBGC. While the increase in computer interconnectivity has changed the way the
government does business, it has also increased the risk of loss and misuse of information by
unauthorized or malicious users. Protecting information systems continues to be one of the most
important challenges facing government organizations today.

Through FISMA, the U.S. Congress showed its intention to enhance the management and
promotion of electronic government services and processes. Its goals are to achieve more
efficient government performance, increase access to government information, and increase
citizen participation in government. FISMA also provides a comprehensive framework for
ensuring the effectiveness of security controls over information resources that support federal
operations and assets. It also codifies existing policies and security responsibilities outlined in
the Computer Security Act of 1987 and the Clinger Cohen Act of 1996.

PBGC operates an open and distributed computing environment to facilitate collaboration and
knowledge sharing, and support its mission of protecting the pensions of nearly 44 million
workers and retirees. It faces the challenging task of maintaining this environment, while
protecting its critical information assets against malicious use and intrusion.



                                                   2
The PBGC Office of Inspector General (OIG) contracted with Clifton Gunderson LLP (CG) to
conduct PBGC's FY 2009 FISMA Independent Evaluation. We performed this evaluation in
conjunction with our review of information security controls required as part of the annual
financial statement audit.


III.   OBJECTIVES

The purposes of this evaluation were to assess the effectiveness of PBGC's information security
program and practices and to determine compliance with the requirements of FISMA and
related information security policies, procedures, standards, and guidelines.


IV.    SCOPE AND METHODOLOGY

To perform our review of PBGC's security program, we followed a work plan based on the
following guidance:

       • National Institute of Standards and Technology (NIST)’s Recommended Security
         Controls for Federal Information Systems – Special Publication (SP) 800-53 for
         specification of security controls.
       • NIST Special Publication 800-37, Guide for the Security Certification and Accreditation
         of Federal Information Systems, for certification and accreditation controls.
       • NIST Special Publication 800-53A, Guide for Assessing the Security Controls in Federal
         Information Systems, for the assessment of security control effectiveness.
       • Government Accountability Office (GAO)’s Federal Information System Controls Audit
         Manual (FISCAM: GAO-09-232G), for information technology audit methodology.

The combination of these methodologies allowed us to meet the requirements of both FISMA
and the Chief Financial Officer’s Act.

Our procedures included internal and external security reviews of PBGC's information
technology (IT) infrastructure; reviewing agency Plans of Action and Milestones (POA&Ms); and
evaluating the following subset of PBGC's major systems:

       •   Consolidated Financial System (CFS)
       •   Premium Accounting System (PAS)
       •   Integrated Present Value of Future Benefits (IPVFB)
       •   Pension and Lump Sum System (PLUS)
       •   ComprizonSuite
       •   Administar

We performed procedures to test (1) PBGC’s implementation of an entity-wide security plan,
and (2) operational and technical controls specific to each application such as service continuity,
logical access, and change controls. We also performed targeted tests of controls over financial
and business process applications. We performed our review from March 24, 2009 to
September 30, 2009 at PBGC's headquarters in Washington DC. We also performed a security
assessment of the PLUS application in July 2009 at State Street Corporation in Quincy,
Massachusetts. This independent evaluation was prepared based on information available as
of September 30, 2009.

                                                  3
V.    SUMMARY OF CURRENT YEAR TESTING

Our review of IT controls covered general and selected business process application controls.
General controls are the structure, policies, and procedures that apply to an entity’s overall
computer systems. They include entity-wide security management, access controls,
configuration management, segregation of duties and contingency planning controls. Business
process application controls are those controls over the completeness, accuracy, validity,
confidentiality, and availability of transactions and data during application processing.

Our review also included the integration of financial management systems to ensure effective
and efficient interrelationships. These interrelationships include common data elements,
common transaction processing, consistent internal controls, and transaction entry.

PBGC’s systemic security control weaknesses and the lack of an integrated financial
management system posed increasing and substantial risk to PBGC’s ability to carry out its
mission during FY 2009. Communication between PBGC’s key decision makers did not convey
the urgent need for decisive strategic decisions to correct fundamental weaknesses in PBGC’s
IT infrastructure and environment. Strategic IT decisions did not address these deficiencies and
significant weaknesses. Furthermore, these weaknesses were not addressed in the status of
corrective actions being reported. As a result, PBGC’s attempt to address entity-wide security
management program deficiencies and systemic security control weaknesses at the root cause
level had minimal effect.

PBGC’s decentralized approach to system development and configuration management has
exacerbated control weaknesses and encouraged inconsistency in implementing strong
technical controls and best practices. The influx of 620 plans for over 800,000 participants from
2002-2005, contributed to PBGC’s disjointed IT development and implementation strategy. The
mandate to meet PBGC’s mission objectives by implementing technologies to receive the influx
of plans superseded proper enterprise planning and IT security controls. The result was a series
of stovepipe solutions built upon unplanned and poorly integrated heterogeneous technologies
with varying levels of obsolescence.

PBGC’s management is starting to take actions to correct control weaknesses by conducting an
assessment of its Oracle database environment, initiating an IT Infrastructure modernization
program, completing the Enterprise Architecture (EA) segment architecture, and implementing
strategic decisions on IT sourcing.

Our current year audit work found deficiencies in the areas of security management, access
controls, configuration management, and segregation of duties. Control deficiencies were also
found in policy administration, and the certification and accreditation of major applications and
general support systems. An effective entity-wide security management program requires a
coherent strategy for the architecture of the IT infrastructure, and the deployment of systems.
The implementation of a coherent strategy provides the basis and foundation for the consistent
application of policy, controls, and best practices. PBGC first needs to develop and implement a
framework to improve their security posture. This framework will require time for effective control
processes to mature.

Based on our findings, we are reporting that significant deficiencies in the following areas
constitute a material weakness for FY 2009:

     1. Entity-wide security program planning and management,

                                                4
    2.   Access controls and configuration management,
    3.   Privacy
    4.   Plan of Action and Milestones (POA&M)
    5.   Miscellaneous FISMA Controls

The findings noted under entity-wide security program planning and management, access
controls and configuration management, were reported in the Report on Internal Controls
Related to the Pension Benefit Guaranty Corporation’s Fiscal Year 2009 and 2008 Financial
Statements Audit (AUD-2010-2/FA-09-64-2) issued on November 12, 2009. As a result of our
findings, we made recommendations to correct the deficiencies. A table summarizing these
findings is in Section VII of this report.

In addition, our audit also found deficiencies specifically related to responses required by OMB
Memorandum M-09-29 which are included in this report. These findings and recommendations,
not previously reported, are as follows.


VI. FINDINGS AND RECOMMENDATIONS

1. Privacy

•   The PBGC’s Privacy Office does not properly monitor its privacy processes for quality and
    compliance. We noted the following weaknesses:

         −   Privacy Impact Assessments (PIAs) for PBGC’s major applications and general
             support systems were not updated on an annual basis in accordance with PBGC
             Information Assurance Handbook, Volume 12.

         −   The PIA Executive Summary for the major applications posted on PBGC’s Internet
             was updated in March 2007 and does not reflect current PIAs conducted.

         −   System of Records Notices (SORNs) for nine (9) out of fourteen (14) PBGC’s major
             applications and general support systems are not current as there were subsequent
             changes to the system after which a SORN was not updated.

    PBGC’s Information Assurance Handbook (IAH), Volume 12 Security Planning Procedures
    requires the Information System Security Officer (ISSO) and Information System Owners to
    complete the PIA before collecting information in an identifiable form. The PIA is then
    reviewed and approved by PBGC’s Privacy Officer.

    PBGC contracted for assessment of its Oracle database in 2009 and issued an Oracle
    Assessment Report in March 2009. The report identified several weaknesses related to
    protecting personally identifiable information (PII), including the following:

         −   PII existed in the development environment.

         −   PBGC does not encrypt its backup tapes, putting PII data at risk when it leaves the
             datacenter.




                                                5
        −   There is nothing in the PBGC IT environment (i.e. production, test, and development
            environments) that prevents the loss of PII data. If somebody were to get access to
            the backup data, they would have unfiltered access to all data elements including PII.

Recommendations:

    o   Review and update the Privacy Impact Assessments (PIAs) at least annually in
        accordance with PBGC’s Information Assurance Handbook. (OIG Control Number
        FISMA-09-01)

        Management’s Response: PBBC agreed.


    o   Conduct an annual review of the PIAs on the PBGC’s website to verify that it reflects the
        most updated PIAs conducted. (OIG Control Number FISMA-09-02)

        Management’s Response: PBBC agreed.


    o   Review and update the System of Records Notice (SORNs) periodically, at least
        annually, to reflect current conditions. (OIG Control Number FISMA-09-03)

        Management’s Response:

        PBGC agreed in part and is assigning additional legal staff from the Office of General
        Counsel to review and update existing Privacy Act System of Records Notices (SORNs)
        for publication in the Federal Register. On January 8, 2010, the Privacy Officer sent a
        copy of the existing SORNs to the designated manager of each system of records for
        review, and requested the submission of any proposed changes to the SORN from the
        manager. As of March 10, 2010, all system owners had responded. PBGC expects to
        complete this aspect of the recommendation by June 1, 2010.

        In addition, the Privacy Officer will establish procedures to send a notice by May 1st of
        every other year to the designated manager of each existing Privacy Act System of
        Records that requests the manager to certify that the SORN remains accurate and up-
        to-date, and if not, to submit proposed changes to the Privacy Officer within 30 days.
        Under Appendix 1 to OMB Circular No. A-130, Management of Federal Information
        Resources, dated November 28, 2000; PBGC is required to review SORNs at least once
        every two years, not annually. PBGC expects to complete this aspect of the
        recommendation by September 30, 2010.

        CG’s Evaluation of Management’s Response:

        We believe the actions proposed by PBGC management are responsive to our
        recommendation.


•   PBGC’s process for reporting PII incidents is inaccurate and unverifiable. We could not
    verify or validate log entries on incidents reported to the United States Computer Emergency
    Readiness Team (US-CERT). Evidence provided could not be traced to incidents reported
    to US-CERT.

                                                6
    We also noted inconsistencies in the reporting of similar PII breaches to US-CERT. Our
    review of PBGC’s FY 2009 PII incident log noted that only six (6) of nineteen (19) PII
    incidents were reported to US CERT. For example, similar PII incidents such as an incident
    dated 10/24/08, disclosing a participant’s social security number (SSN), was not reported to
    US CERT, however, an incident on 11/12/08, disclosing a participant’s SSN, was reported to
    US-CERT. Furthermore, PBGC does not have reporting guidelines for reporting PII
    incidents.

    Without timely and effective remediation of PII incidents, PBGC is at risk for similar
    compromises which may result in participant personal information being at risk.

Recommendations:

    o   Develop and follow specific guidance on how and when to report incidents, involving PII
        disclosure. (OIG Control Number FISMA-09-04)

        Management’s Response: PBBC agreed.


    o   Ensure all incidents involving PII are reported to US CERT within 1 hour of discovery.
        (OIG Control Number FISMA-09-05)

        Management’s Response: PBBC agreed.


    o   Ensure all reports submitted to US-CERT are documented and maintained appropriately.
        (OIG Control Number FISMA-09-06)

        Management’s Response: PBBC agreed.


•   Technical controls related to the protection of PII need to be strengthened. Based on our
    review, we noted that:

        −   No encryption mechanism was in place on PBGC laptops.

        −   No formalized procedures were in place to control laptops leaving PBGC premises

    Any unauthorized use, disclosure, or loss of PII data can result in the loss of the public’s
    trust and confidence in PBGC’s ability to properly protect it. PII data breaches may have far-
    reaching implications for individuals whose PII is compromised, including identity theft
    resulting in financial loss and/or personal hardship experienced by the individual. A PII data
    breach may also require significant PBGC staff, time, assets, and financial resources to
    mitigate the negative consequences, which may prevent PBGC from allocating those
    resources elsewhere.




                                                7
Recommendation:

    o   Implement encryption on all PBGC’s laptops to ensure that PII is adequately protected.
        (OIG Control Number FISMA-09-07)

        Management’s Response: PBBC agreed.


2. Plan of Action and Milestones (POA&M)

•   PBGC management did not provide CG with a copy of the entity wide POA&M. Lack of an
    up-to-date and consolidated POA&M will result in security deficiencies identified not being
    properly tracked and monitored, and thereby not remediated in a timely manner.

Recommendations:

    o   Develop, maintain and update PBGC’s entity-wide plan of action and milestones, at least
        on a quarterly basis, and ensure it includes all entity-wide security deficiencies noted.
        (OIG Control Number FISMA-09-08)

        Management’s Response: PBBC agreed.


    o   Disseminate PBGC’s entity wide POA&M to all responsible parties to ensure corrective
        actions are taken in accordance with POA&M. (OIG Control Number FISMA-09-09)

        Management’s Response: PBBC agreed.


•   PBGC’s POA&M process is ineffective. We noted the following deficiencies in FY 2009:

        −   No evidence that reports on the progress of security weakness remediation is being
            provided to the Chief Information Officer (CIO) on a regular basis.

        −   No evidence that the PBGC CIO centrally tracks, maintaining and independently
            reviews/validates POA&M activities on at least a quarterly basis.

Recommendations:

    o   Ensure that the agency and program specific plan of action and milestones are tracked
        appropriately and is provided to PBGC’s CIO regularly. (OIG Control Number FISMA-
        09-10)

        Management’s Response: PBBC agreed.

    o   Ensure PBGC’s CIO centrally tracks, maintains and independently reviews/validates
        POA&M activities, at least on a quarterly basis. (OIG Control Number FISMA-09-11)

        Management’s Response: PBBC agreed.


                                                8
3. Miscellaneous FISMA Controls

•   PBGC has not included information about its IT security policies and requirements including
    use of NIST common security configurations in all of its IT contracts as requiried by FAR §
    39.101(d).

Recommendation:

    o   Ensure all PBGC IT acquisition include appropriate language as required by FAR §
        39.101(d). (OIG Control Number FISMA-09-12)

        Management’s Response: PBBC agreed.




                                               9
VII. PREVIOUSLY REPORTED FISMA-RELATED FINDINGS

The following table summarizes FISMA-related findings noted under entity-wide security
program planning and management, access controls, and configuration management that were
reported in the Report on Internal Controls Related to the Pension Benefit Guaranty
Corporation’s Fiscal Year 2009 and 2008 Financial Statements Audit (AUD-2010-2/FA-09-64-2)
issued November 12, 2009.

                 Finding Summary                                      Recommendation

1. PBGC has identified sixty-five (65) common         Effectively communicate to key decision
security controls for the seventeen (17) NIST SP      makers the state of PBGC’s IT infrastructure
800-53, Recommended Security Controls for             and environment to facilitate the prioritization
Federal Information Systems, security control         of resources to address fundamental
families. Of the 65 common security controls          weaknesses. (OIG Control Number FS-09-
tested by PBGC, only four controls were               01)
properly designed and operating effectively.
Weaknesses in PBGC’s infrastructure design            Complete     and   confirm    the     design,
and deployment strategy for systems and               implementation, and operating effectiveness
applications have adversely affected its ability to   of all 65 common security controls identified.
effectively implement common security controls        (OIG Control Number FS-08-01)
across its systems and applications.
                                                      Develop a process to review and validate
                                                      reported progress on the implementation of
                                                      the common security controls. Implement a
                                                      strategy to test and document the
                                                      effectiveness   of  each    new    control
                                                      implemented. (OIG Control Number FS-09-
                                                      02)


2. PBGC’s process for the completion of C&A           Develop and implement a well-designed
packages in accordance with NIST SP 800-37,           security management program that will
Guide for the Security Certification and              provide security to the information and
Accreditation of Federal Information Systems is       information systems that support the
ineffective. Fundamental weaknesses in PBGC’s         operations and assets of the Corporation,
infrastructure architecture and design do not         including those managed by contractors or
support the certification and accreditation of its    other Federal agencies. (OIG Control
information systems. Furthermore, PBGC’s              Number FS-09-03)
information systems employ obsolete and
antiquated technologies that pose additional risk     Complete       the     development      and
to the availability of financially significant        implementation of the redesign of PBGC’s IT
systems.                                              infrastructure and the procurement and
                                                      implementation of technologies to support a
                                                      more coherent approach to providing
                                                      information services and information system
                                                      management controls. (OIG Control Number
                                                      FS-09-04)
                                                      Implement an effective review process to
                                                      validate the completion of the certification and
                                                      accreditation packages for           all major

                                                 10
Finding Summary                        Recommendation
                       applications and general support systems.
                       The review should not be performed by an
                       individual associated with the performance of
                       the C&A or by someone who could influence
                       the results. This review should be completed
                       for all components of the work performed to
                       ensure substantial documentation is available
                       that supports and validates the results
                       obtained. (OIG Control Number FS-08-02)
                       Ensure that adequate documentation is
                       maintained which supports, substantiates, and
                       validates all results and conclusions reached
                       in the C&A process. (OIG Control Number
                       FS-09-05)
                       Establish and implement comprehensive
                       procedures and document the roles and
                       responsibilities that ensure oversight and
                       accountability in the certification and review
                       process. Retain evidence of oversight reviews
                       and take action to address erroneous or
                       unsupported reports of progress. (OIG
                       Control Number FS-09-06)
                       Maintain an accurate and authoritative
                       inventory list of major applications and general
                       support systems. Ensure the list is
                       disseminated to responsible staff and used
                       consistently throughout PBGC OIT operations.
                       (OIG Control Number FS-09-07)
                       Implement an independent and effective
                       review process to validate the completion of
                       the certification and accreditation packages
                       for all applications and general support
                       systems hosted on behalf of PBGC by third
                       party processors. The effective review should
                       include examining host and general controls
                       risk assessments. (OIG Control Number FS-
                       08-03)
                       Implement robust and rigorous review
                       procedures to verify that future contracts for
                       the Certification and Accreditation of PBGC’s
                       systems clearly outline expectations and
                       deliverables in the statement of work. (OIG
                       Control Number FS-09-08)
                       Implement a robust and rigorous quality
                       review process to verify contractor C&A

                  11
                Finding Summary                                   Recommendation
                                                   deliverables meet the requirements specified
                                                   in the statement of work. (OIG Control
                                                   Number FS-09-09)
                                                   Establish controls to ensure that contract staff
                                                   tasked with the C&A of PBGC systems have
                                                   the appropriate knowledge and background to
                                                   accurately and comprehensively complete the
                                                   C&A process. (OIG Control Number FS-09-
                                                   10)
                                                   Implement a robust and rigorous process to
                                                   verify compliance with PBGC’s policy on
                                                   contractor management throughout the C&A
                                                   lifecycle. (OIG Control Number FS-09-11)


3. Information security policies and procedures    Develop and implement a process to enforce
were not fully disseminated and implemented.       the dissemination and awareness of PBGC’s
PBGC is not able to effectively enforce            security policies and procedures through
compliance for Security Awareness training.        adequate training. (OIG Control Number FS-
                                                   07-04)


4. Office of Information Technology (OIT) and      Establish, document, and publish measurable
system owners (i.e. business owners) have not      services that OIT provides to the Corporation,
established and documented service level           that are acceptable to all information system
agreements that include metrics on OIT services    owners. (OIG Control Number FS-07-06)
required to meet business goals.


5. PBGC’s configuration management controls        Develop and implement procedures and
are labor intensive and ineffective. Weaknesses    processes for the consistent implementation
in the design of PBGC’s infrastructure and         of common configuration management
deployment      strategy     for  systems   and    controls to minimize security weaknesses in
applications created an environment where          general support systems. (OIG Control
strong technical controls and best practices       Number FS-07-07)
cannot       be      effectively    implemented.
Configuration     management       controls  are   Develop and implement a coherent strategy
therefore not consistently implemented across      for correcting IT infrastructure deficiencies and
PBGC’s general support systems.                    a framework for implementing common
                                                   security controls, and mitigating the systemic
                                                   issues related to access control by
                                                   strengthening system configurations and user
                                                   account management for all of PBGC’s
                                                   information systems. (OIG Control Number
                                                   FS-09-12)

                                                   Establish baseline configuration standards for
                                                   all of PBGC’s systems. (OIG Control Number


                                              12
                Finding Summary                                   Recommendation
                                                   FS-09-13)
                                                   Review configuration settings and document
                                                   any    discrepancies    from     the   PBGC
                                                   configuration   baseline.    Develop     and
                                                   implement corrective actions for systems that
                                                   do not meet PBGC’s configuration standards.
                                                   (OIG Control Number FS-09-14)
                                                   Ensure test, development and production
                                                   databases are appropriately segregated to
                                                   protect sensitive information and also fully
                                                   utilized to increase system performance. (OIG
                                                   Control Number FS-09-15)
                                                   Establish interim procedures to implement
                                                   available compensating controls (such as
                                                   establishing a test team to verify developer
                                                   changes in production) until a comprehensive
                                                   solution to adequately segregate test,
                                                   development and production databases can
                                                   be implemented. (OIG Control Number FS-
                                                   09-16)


6. PBGC’s policies and practices have not Continue to remove unnecessary user and/or
effectively restricted the addition of unnecessary generic accounts. (OIG Control Number FS-
and generic accounts to systems in production. 07-08)
Consequently, the number of unnecessary and
generic accounts grew over the years. PBGC
management has not determined if the removal
of all legacy generic accounts would disrupt
production activities.


7. Controls are not consistently implemented       Consistently      implement  controls    to
to appropriately segregate duties and grant        appropriately segregate duties and grant
rights and privileges commensurate with the job    rights and privileges commensurate with the
functions and responsibilities. PBGC does not      job functions and responsibilities. (OIG
have a coherent strategy for enforcing             Control Number FS-07-09)
segregation of duties through strong technical
controls in its applications and general support   Assess the risk associated with lacking
systems.                                           segregation of duties, password management,
                                                   and overall inadequate system configuration.
                                                   Discuss risk with system owners and
                                                   implement compensating controls wherever
                                                   possible. If compensating controls cannot be
                                                   implemented the system owner should sign-
                                                   off indicating risk acceptance. (OIG Control
                                                   Number FS-09-17)


                                              13
                 Finding Summary                                     Recommendation

8. Developers have access to the production           Appropriately restrict developers’ access to
environment, which exposes PBGC to the risk of        production environment to only temporary
unauthorized modification of the application, the     emergency access. (OIG Control Number
circumvention   of    critical  controls,    and      FS-07-10)
unnecessary access to sensitive data.
                                                      Assess developers’ access to production on
                                                      all PBGC systems and determine if access is
                                                      required based on the security principles
                                                      “need to know and least privilege.” If
                                                      developers require access to a specific
                                                      application, the reason should be documented
                                                      and management should sign-off indicating
                                                      acceptance of the risk(s). In all other
                                                      instances developer access to production
                                                      should be immediately removed. (OIG
                                                      Control Number FS-09-18)


9. Controls are not consistently applied to           Consistently apply controls to ensure that
ensure that authentication parameters for             authentication parameters for PBGC’s general
general support systems (e.g. Novell, Windows,        support systems (e.g. Novell, Windows, Sun
SUN Solaris, Oracle, etc.) and applications are       Solaris, Oracle, etc.) and applications are in
in compliance with the IAH. PBGC’s                    compliance with the IAH. (OIG Control
decentralized approach to system development          Number FS-07-11)
and configuration management has made it
particularly difficult to implement consistent        Implement a manual review process whereby
technical controls across PBGC’s many                 OIT periodically reviews systems for
systems, platforms, and applications.                 compliance with baseline settings. (OIG
                                                      Control Number FS-09-19)


10. PBGC is still in the process of identifying       For the remaining systems, apply controls to
dependencies between databases, applications,         lock out and remove inactive and dormant
and operating systems in order to fully               accounts after a specified period in
implement controls to lock out and remove             accordance with the IAH. (OIG Control
inactive and dormant accounts. However, there         Number FS-07-12)
are still some PBGC systems that have not
implemented these controls.


11. The      OIT    recertification   process    is   Complete the implementation of the
incomplete and only addresses generic and             recertification process for all user and system
service accounts; it does not include all user and    accounts. Continue to perform annual
system accounts. In addition, the Recertification     recertification and include all PBGC’s
of User Access Process, version 1.2, does not         accounts (e.g. user, generic, service, and
explicitly state that all accounts (e.g. user,        systems accounts) for general support
system, and service) across all platforms and         systems and major applications. (OIG Control
applications will be re-certified annually.           Number FS-07-13)



                                                 14
                 Finding Summary                                    Recommendation

12. Vulnerabilities found in key databases and       Implement controls to remedy vulnerabilities
applications      include    weaknesses       in     noted in key databases and applications such
configuration, roles, privileges, auditing, file     as weaknesses in configuration, roles,
permissions, and operating system access.            privileges, auditing, file permissions, and
These PBGC system vulnerabilities are caused         operating system access. (OIG Control
by an ineffective deployment strategy in the         Number FS-07-14)
development,        test,    and     production
environments. Ineffective system deployments         Implement controls to remedy weaknesses in
have resulted in an environment that is in           the deployment of servers, applications, and
disarray.                                            databases in the development, test, and
                                                     production environments. (OIG Control
                                                     Number FS-09-20)


13. Access request authorizations were not           Ensure that adequate documentation of
appropriately documented. PBGC has not fully         access authorization is maintained by
implemented controls to ensure Enterprise Local      implementing    proper   monitoring and
Area Network (ELAN) forms are properly               enforcement measures in compliance with
documented and maintained.                           approved policies and procedures. (OIG
                                                     Control Number FS-07-15)


14. PBGC lacks an effective process to track         Update and enforce directive PM 05-1, PBGC
contractors throughout their employment at           Entrance on Duty and Separation Procedures
PBGC, including appropriate notifications of start   for Federal and Contract Employees, to
dates and separation. Management has                 ensure contract personnel can be tracked
reported that policies and procedures, to include    effectively. Also, ensure a formal Entrance on
PBGC directive PM 05-1, PBGC Entrance on             Duty and Separation Clearance process is
Duty and Separation Procedures for Federal and       followed. (OIG Control Number FS-07-16)
Contract Employees have not been updated to
provide effective enforcement of controls
designed to track entrance and separation of all
Federal and contract employees.


15. Periodic logging and monitoring of security-     Implement a logging and monitoring process
related events for PBGC’s applications were          for application security related events and
inadequate CFS, PAS, Trust Accounting System         critical system modifications (e.g. CFS, PAS,
(TAS), Participant Records Information Systems       TAS, PRISM, and IPVFB). (OIG Control
Management (PRISM), and Integrated Present           Number FS-07-17)
Value of Future Benefits (IPVFB) System.
PBGC’s information technology infrastructure
consist of multiple legacy systems and
applications (e.g. PAS, TAS, IPVFB, PRISM,
GENESIS database, Solaris 8, Oracle 8i, Novell
NetWare 5.1, Windows NT, etc.) that do not
have a coherent architecture for the
management and security of these systems.


                                                15
VIII. FISMA RECOMMENDATIONS CLOSED IN FISCAL YEAR 2009

        OIG Control Number   Date Closed              Original Report Number

        None




IX.   PRIOR AND CURRENT YEARS’ OPEN FISMA RECOMMENDATIONS

        OIG Control Number                 Original Report Number

        Prior Year
        None




        Current Year
        FISMA-09-01                        EVAL-2010-7/FA-09-64-7
        FISMA-09-02                        EVAL-2010-7/FA-09-64-7
        FISMA-09-03                        EVAL-2010-7/FA-09-64-7
        FISMA-09-04                        EVAL-2010-7/FA-09-64-7
        FISMA-09-05                        EVAL-2010-7/FA-09-64-7
        FISMA-09-06                        EVAL-2010-7/FA-09-64-7
        FISMA-09-07                        EVAL-2010-7/FA-09-64-7
        FISMA-09-08                        EVAL-2010-7/FA-09-64-7
        FISMA-09-09                        EVAL-2010-7/FA-09-64-7
        FISMA-09-10                        EVAL-2010-7/FA-09-64-7
        FISMA-09-11                        EVAL-2010-7/FA-09-64-7
        FISMA-09-12                        EVAL-2010-7/FA-09-64-7




                                    16
X.   MANAGEMENT RESPONSE




                           17
18
19
20
21
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
